May 31, 2007

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

BRENDA L. BAUGH
MANAGER, DALLAS BULK MAIL CENTER

SUBJECT:     Audit Report – Efficiency Review of the Dallas Bulk Mail Center
             (Report Number NO-AR-07-005)

This report presents the results of our review of the Dallas, Texas, Bulk Mail Center
(BMC) located in the Southwest Area (Project Number 06YG006NO000). Our objective
was to assess the efficiency of the Dallas BMC operations. U.S. Postal Service
Headquarters requested the audit, and we conducted the audit in cooperation with
Headquarters and local BMC officials.

The audit confirmed that the Dallas BMC could improve operational efficiency.
Specifically, the Dallas BMC did not adjust workhours in response to changes in
workload, attain the efficiency achieved by most other BMCs, achieve target
productivities, take full advantage of existing mechanization options, and reduce excess
handling of mail. Consequently, the Dallas BMC used more workhours than necessary
to process the mail.

The Dallas BMC could improve operational efficiency by reducing mail processing
workhours by 418,000 based on fiscal year 2006 usage. This would allow the Dallas
BMC to achieve target productivity levels and produce a cost avoidance of
$134,971,638 based on workhour savings projected over 10 years. We will report these
workhour savings as funds put to better use in our Semiannual Report to Congress.

We made four recommendations. Management agreed with our finding and
recommendations. Management has initiatives in progress, completed, or planned
addressing the issues in this report. Management’s comments and our evaluation of
these comments are included in the report. During the audit, the Postal Service agreed
to reduce workhours to improve efficiency and began taking corrective action on our
recommendations.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendation 1
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when the corrective action is completed. This
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, Director, Network Processing, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    William C. Rucker
    David E. Williams
    Jamie O. Fuentes
    Katherine S. Banks
Efficiency Review of the Dallas                                          NO-AR-07-005
 Bulk Mail Center


                                  TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objective, Scope, and Methodology                                            3
     Prior Audit Coverage                                                         3

 Part II

 Audit Results                                                                    4

     Assessment of Dallas Bulk Mail Center Efficiency                             4
     Recommendations                                                             15
     Management’s Comments                                                       15
     Evaluation of Management’s Comments                                         15

 Appendix A. Southwest Area Customer Service Districts by Three-Digit            16
             ZIP Code Area

 Appendix B. Prior Audit Coverage                                                17

 Appendix C. Bulk Mail Center Processing Costs                                   18

 Appendix D. Potential Workhour Savings at the Dallas Bulk Mail Center           19
             (Selected Operations)

 Appendix E. Dallas Bulk Mail Center Suggestions for Improving                   20
             Efficiency

 Appendix F. Dallas Bulk Mail Center Cost Avoidance (Funds Put to                21
             Better Use)

 Appendix G. Management’s Comments                                               22
Efficiency Review of the Dallas                                              NO-AR-07-005
 Bulk Mail Center




 TABLES AND ILLUSTRATIONS

 Tables

  Table 1. Postal Service’s Share of Package Delivery Market                          2

  Table 2. Postal Service Package Volume                                              2

  Table 3. Overtime Rate Comparison to Workload                                       5

  Table 4. Dallas BMC High Earners                                                    6

  Table 5. Dallas BMC Productivity Ranking                                            6

 Table 6. Productivity Comparison of Machinable Parcels, Small Parcel                11
          Bundle Sorter, and Sack Sorter

  Illustrations

  Illustration 1.    Bulk mail center locations                                       1

  Illustration 2.    Improper mail staging                                            8

  Illustration 3.    Insufficient mail transport equipment                            8

  Illustration 4.    Mail delivered to wrong dock                                     9

  Illustration 5.    Mail directed to keyers rather than Singulation Scan            10
                     Induction Units

  Illustration 6.    Emphasis placed on keying                                       10

  Illustration 7.    Scanner disabled on Universal Sorter                            11

  Illustration 8.    Mail backed up on Rapistan Tray Sorter                          13

  Illustration 9.    Nonmachinable outsides mechanized operation not                 13
                     staffed

  Illustration 10. Inadequate supervision resulted in delays in processing           14
                   nonmachinable outsides, creating a bottleneck
Efficiency Review of the Dallas                                                     NO-AR-07-005
 Bulk Mail Center


                                    EXECUTIVE SUMMARY
 Introduction                     The U.S. Postal Service Office of Inspector General
                                  assessed the efficiency of mail processing operations at the
                                  Dallas Bulk Mail Center (BMC), located in the Southwest
                                  Area. U.S. Postal Service Headquarters requested the
                                  audit, and we conducted the audit in cooperation with
                                  Headquarters and local BMC officials.

 Results in Brief                 The Dallas BMC could improve efficiency. Specifically, the
                                  Dallas BMC did not adjust workhours in response to
                                  changes in workload, attain the efficiency achieved by most
                                  other BMCs, achieve target productivities, take full
                                  advantage of existing mechanization options, and reduce
                                  excess handling of mail.

                                  39 of the U.S.C. Chapter 4, § 403 (a) states, “The Postal
                                  Service shall plan, develop, promote, and provide adequate
                                  and efficient postal services…” The U.S. Postal Service
                                  Transformation Plan also recommends that the Postal
                                  Service improve productivity.

                                  Dallas BMC management addressed operational efficiency
                                  by adjusting their allocated workhours to match the number
                                  of workhours planned for in the budget process. As a result,
                                  fiscal year (FY) 2006 workhours were approximately 31,400
                                  below budgeted workhours. However, Postal Service
                                  management had not:

                                      •   Evaluated operational efficiency by assessing its
                                          own performance against productivity targets and
                                          other BMCs.

                                      •   Adjusted resources, both staff and equipment, in
                                          response to workload changes.

                                  In addition, the Dallas BMC could provide better supervisory
                                  oversight. Consequently, the Dallas BMC was using more
                                  workhours than necessary to process its mail volume.

                                  Postal Service management agreed to reduce workhours by
                                  418,000 based on FY 2006 usage. This action could
                                  produce a cost avoidance of $134,971,638 over the next
                                  10 years.




                                                   i
Efficiency Review of the Dallas                                                        NO-AR-07-005
 Bulk Mail Center




 Summary of                       We recommended the Manager, Dallas BMC, reduce
 Recommendations                  workhours at the Dallas BMC by 418,000; periodically
                                  evaluate operating efficiency in relation to target productivity
                                  levels and other BMCs; adjust resources (workhours and
                                  equipment) in response to workload changes; and provide
                                  better supervisory oversight. In addition, we recommended
                                  the Manager, Dallas BMC, reduce sack sorter processing as
                                  much as possible.

 Summary of                       Management agreed with our finding and recommendations.
 Management’s                     Management agreed to reduce workhours at the Dallas
 Comments                         BMC and to periodically evaluate the facility’s operating
                                  efficiency against established productivity targets.
                                  Management also agreed to increase supervisory oversight
                                  of employees, and validate mail volumes processed on sack
                                  sorters. Management’s comments, in their entirety, are
                                  included in Appendix G of this report.

 Overall Evaluation of            Management’s comments are responsive to the finding and
 Management’s                     recommendations. Management’s actions taken or planned
 Comments                         should correct the issues identified in the report.




                                                   ii
Efficiency Review of the Dallas                                                                             NO-AR-07-005
 Bulk Mail Center


                                               INTRODUCTION
    Background                       Bulk mail centers (BMC) are highly mechanized mail
                                     processing plants that are part of the National Bulk Mail
                                     System. These facilities distribute Parcel Post®,1
                                     Standard Mail®,2 and Periodicals.3 The U.S. Postal
                                     Service developed a bulk mail network in the 1970s to
                                     maintain its share of the parcel market against the United
                                     Parcel Service (UPS) and built 21 plants. (See
                                     Illustration 1.)

                                      Illustration 1. BMC Locations




                                          Source: Postal Service Poster 175


                                     Many carriers serve the package delivery market. UPS;
                                     Federal Express; the Postal Service; and Dalsey, Hillbloon,
                                     and Lynn are the larger players in the market. As seen in
                                     Table 1, the Postal Service has lost market share in every
                                     segment of the package delivery market since fiscal year
                                     (FY) 2002.




1
  Parcel Post is mail that does not meet the mail processing category of letter-size mail or flat-size mail. It is usually
enclosed in a mailing container such as a carton.
2
  Standard Mail is a mail class that is not mailed as First-Class Mail® or entered as Periodicals.
3
  Periodicals consist of magazines, newspapers, or other publications formed of printed sheets that are issued at
least four times a year from a known office of publication.



                                                             1
Efficiency Review of the Dallas                                                           NO-AR-07-005
 Bulk Mail Center




                                           Table 1. Postal Service’s Share of Package
                                                        Delivery Market

                                                 Overnight      2- and 3-Day
                                    Fiscal          Air              Air           Ground
                                     Year      (Percentage)     (Percentage)     (Percentage)
                                    2002             6               74               31
                                    2003             5               71               31
                                    2004             5               71               29
                                    2005             5               72               26

                                             Source: FY 2005 USPS Household Diary Study

                                  As shown in Table 2, Postal Service total package volume
                                  decreased in FY 2005 after increasing in FY 2004.
                                  Households increased their use of both First-Class and
                                  Priority Mail® Package Services.

                                             Table 2. Postal Service Package Volume
                                                        (Units in millions)

                                     Mail Classification      FY 2003    FY 2004     FY 2005
                                   First-Class and Priority        642        739         821
                                   Expedited Mail                  485        616         649
                                   Standard Mail                   903        887         802
                                   Package Services                647        724         520
                                   Unclassified                     89        137         125
                                   Total Packages                2,766      3,102       2,916

                                             Source: FY 2005 USPS Household Diary Study

                                  To process parcels more efficiently, the Postal Service has
                                  developed automation to reduce manual handling and
                                  increase capacity. New mail processing equipment, such
                                  as the Singulation Scan Induction Unit (SSIU) and the
                                  Automated Package Processing System, has raised BMC
                                  productivity and replaced less efficient equipment such as
                                  the sack sorter.

                                  The Dallas BMC has the highest mail volume of the
                                  21 BMCs and is located in the Southwest Area. (See
                                  Appendix A.) From FY 2004 through FY 2006, the Dallas
                                  BMC’s mail volume declined by 16.4 million pieces
                                  (7.16 percent) and workhours declined by 119,279 hours
                                  (5.96 percent).



                                                     2
Efficiency Review of the Dallas                                                      NO-AR-07-005
 Bulk Mail Center


 Objective, Scope,                The objective of our audit was to assess the efficiency of
 and Methodology                  the Dallas BMC operations. To assess efficiency, we
                                  observed mail processing operations, analyzed mail
                                  volumes and workhours, evaluated machine use, and
                                  interviewed Postal Service officials. In addition, we
                                  benchmarked productivity against the other 20 BMCs
                                  nationwide.

                                  We relied on Postal Service operational systems, including
                                  the National Workhour Reporting System, the Enterprise
                                  Data Warehouse, the Web-Enabled Enterprise Information
                                  System, the Web End of Run System, the Activity-Based
                                  Costing System, the Breakthrough Productivity Initiative,
                                  and the Management Operating Data System. We did not
                                  test the validity of controls over these systems. However,
                                  we checked the accuracy of data by confirming our
                                  analysis and results with Postal Service managers.

                                  We conducted this audit from April 2006 through May 2007
                                  in accordance with generally accepted government
                                  auditing standards and included such tests of internal
                                  controls as we considered necessary under
                                  the circumstances. We discussed our observations and
                                  conclusions with management officials on November 28,
                                  2006, and included their comments where appropriate.

 Prior Audit Coverage             We have issued 22 audit reports on workhour efficiency.
                                  As a result of these audits, the Postal Service has agreed
                                  to reduce approximately 2.4 million workhours. These
                                  reductions could produce a cost avoidance of about
                                  $714 million over 10 years. (See Appendix B.)

                                  In addition, we issued an audit report on the mail
                                  processing controls at the Dallas BMC (Report Number
                                  NO-AR-06-009 September 28, 2006). The audit found
                                  internal controls over mail processing were generally in
                                  place and effective. However, controls over mail reporting,
                                  timekeeping, color coding, and preventive maintenance
                                  required strengthening. During the audit, BMC
                                  management developed an action plan to address the
                                  internal control deficiencies.




                                                   3
Efficiency Review of the Dallas                                                     NO-AR-07-005
 Bulk Mail Center


                                          AUDIT RESULTS
 Assessment of                    Management at the Dallas BMC could use resources more
 Dallas Bulk Mail                 efficiently. Specifically, the Dallas BMC did not:
 Center Efficiency
                                      •   Adjust workhours in response to changes in workload.

                                      •   Attain the efficiency achieved by most other BMCs.

                                      •   Achieve target productivities.

                                      •   Minimize mail handling.

                                      •   Take full advantage of existing mechanization options.

                                  39 U.S.C. Chapter 4, § 403 (a) states, “The Postal Service
                                  shall plan, develop, promote, and provide adequate and
                                  efficient postal services . . .” The U.S. Postal Service
                                  Transformation Plan also recommends that the Postal Service
                                  improve productivity.

                                  Dallas BMC management addressed operational efficiency by
                                  adjusting their allocated workhours in relation to budgeted or
                                  planned workhours. As a result, FY 2006 workhours were
                                  approximately 31,400 below budgeted workhours. However,
                                  management had not evaluated operational efficiency by
                                  assessing its performance against productivity targets and
                                  other BMCs, and adjusting resources, both staff and
                                  equipment, in response to workload changes. In addition, the
                                  Dallas BMC could provide better supervisory oversight.
                                  Consequently, the Dallas BMC was using more workhours
                                  than necessary to process its mail volume.

 Workhours in Relation            Workhours were excessive in relation to workload. In
 to Workload                      FY 2006, the First Handled Pieces (FHP) mail volume
                                  declined by almost 5 percent (4.85 million pieces), while
                                  workhours used to process this mail decreased by just
                                  1 percent, or the equivalent of 22,803 workhours from
                                  FY 2005 levels. In addition, the overtime workhours used to
                                  process this mail increased from 288,674 in FY 2005 to
                                  310,212 in FY 2006, an increase of nearly 7.5 percent. This
                                  means the Dallas BMC management had not adjusted
                                  workhour usage in response to decreased mail volume.




                                                   4
Efficiency Review of the Dallas                                                                    NO-AR-07-005
 Bulk Mail Center



                                   Additionally, the correlation between overtime usage and
                                   workload could be improved. For example, in FY 2005, the
                                   correlation between Total Pieces Handled (TPH) volume and
                                   overtime was .83, indicating that management had properly
                                   used overtime in response to workload changes. However, in
                                   FY 2006, this correlation was .67, indicating that overtime
                                   usage could be better managed.

                                   Analysis of overtime trends substantiates this finding. Table 3
                                   shows that although TPH volume fluctuated, the overtime rate
                                   remained relatively stable. For example, in FY 2004, the
                                   Dallas BMC experienced a 9.6 percent increase4 in TPH mail
                                   volume, and the overtime rate was 15.77 percent. In contrast,
                                   in FYs 2005 and 2006, the Dallas BMC experienced declines
                                   in TPH volume, yet the overtime rate was more than 16.49
                                   percent. This indicated that overtime was not being used in
                                   relation to workload changes.

                                         Table 3. Overtime Rate Comparison to Workload

                                                                TPH Volume               Overtime
                                                Fiscal            Change                   Rate5
                                                 Year           (Percentage)           (Percentage)
                                                 2004                   9.6                  15.77
                                                 2005                  -5.2                  16.68
                                                 2006                  -2.0                  16.49

                                   Additionally, the increase in overtime led to an increase in the
                                   number of craft employees on the high earners list. Excessive
                                   overtime results in higher labor costs because overtime rates
                                   are 50 percent more than the standard hourly pay rate. In pay
                                   year 2004, 79 out of 1,074 craft employees (7.4 percent) at
                                   the Dallas BMC earned more than $70,000, while in pay year
                                   2006, 101 out of 986 (10.2 percent) earned more than
                                   $70,000. (See Table 4.) FY 2006 base salaries for these
                                   employees ranged from $43,512 to $49,095.




4
    As compared to the prior FY.
5
    The complement from FY 2005 to FY 2006 changed only by 3.7 percent, and thus did not impact overtime usage.



                                                         5
Efficiency Review of the Dallas                                                                    NO-AR-07-005
 Bulk Mail Center




                                    Table 4. Dallas BMC High Earners
                                   Number of                                 Percentage of
                                   Employees           Total Number           Employees
                  Calendar        Earning More            of Craft         Earning More than
                    Year          than $70,000          Employees               $70,000
                    2004                     79                 1,074                     7.4
                    2005                     83                 1,024                     8.1
                    2006                    101                    986                   10.2

    Comparison to Other           The Dallas BMC has generally been less efficient than other
    Bulk Mail Centers             BMCs. For example, in FY 2004, the Dallas BMC ranked 12th
                                  out of 21 BMCs in overall productivity (volume per workhour).
                                  Similarly, in FYs 2005 and 2006, the Dallas BMC ranked 15th
                                  and 13th out of 21 BMCs, respectively. Table 5 shows the
                                  overall ranking, as well as the Dallas BMC’s ranking, for major
                                  sorting operations from FY 2004 through FY 2006.

                               Table 5. Dallas BMC Productivity Ranking

                                                            FY 2004       FY 2005        FY 2006
                         Operation                           Rank          Rank           Rank
              Overall                                             12           15              13
              Major Operations:
              Machinable Parcels6*                                  13            13              19
              Small Parcel and Bundle Sorter7**                     14            11               7
              Sacks                                                 14            14              10
              Mechanized Letter trays8***                            2             3               4
              Manual Nonmachinable Outsides                         12            17              17

                                  Mail processing was more expensive at the Dallas BMC than
                                  at other BMCs. For example, the cost per 1,000 FHP for the
                                  Dallas BMC for FY 2005 was $1,526, while the national
                                  average for the same period was $1,260. In FY 2006, the
                                  cost per 1,000 FHP for Dallas was $1,649, while the national
                                  average was $1,365. This means that in FYs 2005 and 2006,
                                  handling a piece of mail cost an average of 21 percent more
                                  at the Dallas BMC than the national average for other BMCs.
                                  Appendix C shows the cost per 1,000 FHP for each of the 21
                                  BMCs as well as the national average.


6
  Productivity ranking is based on TPH volume.
7
  Only 18 BMCs have a small parcel bundle sorter operation.
8
  Only nine BMCs had a mechanized letter tray operation in FY 2004, 14 in FY 2005, and 17 in FY 2006.



                                                        6
Efficiency Review of the Dallas                                                       NO-AR-07-005
 Bulk Mail Center



 Target Productivities            The Dallas BMC, from FY 2004 through FY 2006, did not
                                  achieve overall target productivity levels. In FYs 2004, 2005,
                                  and 2006, the Dallas BMC only achieved 79 percent, 89
                                  percent, and 81 percent of its target productivity levels,
                                  respectively.

                                  Target productivity levels are based on total pieces of mail
                                  that employees should process for each workhour of an
                                  operation. Achieving established productivity levels could
                                  reduce workhours.

                                  For example, the machinable parcels secondary operation
                                  achieved 71 percent of its national target productivity level of
                                  338 pieces per workhour in FY 2006. If this operation
                                  achieved its national Breakthrough Productivity Index target
                                  level, the Dallas BMC could save over 89,000 processing
                                  workhours per year in a single operation. Appendix D shows
                                  that the Dallas BMC could potentially save approximately
                                  165,000 workhours in four operations.

 Mail Handlings                   Excessive mail handling at the Dallas BMC resulted in lower
                                  productivity and use of more workhours than necessary to
                                  process mail volumes. Specifically:

                                       •   Mail was staged outside the designated staging
                                           areas, resulting in congestion and additional
                                           handlings. In addition, older mail was staged behind
                                           more recent mail, which meant that the newer mail
                                           had to be moved in order to reach and process the
                                           older mail.




                                                    7
Efficiency Review of the Dallas                                                               NO-AR-07-005
 Bulk Mail Center




                                  Illustration 2. Improper mail staging. Mail was staged outside of the
                                  designated staging area at the dock areas, resulting in congestion and
                                  additional mail handlings. (June 29, 2006, 11:00 a.m.)

                                       •   Because the Dallas BMC did not always have
                                           sufficient mail transport equipment (MTE), mail had to
                                           be shrink-wrapped, which required additional
                                           handlings. In addition, mail was not always properly
                                           shrink-wrapped, which resulted in bundle breakage
                                           and further handling.




                                  Illustration 3. Insufficient MTE. The Dallas BMC had to shrink-wrap
                                  letter trays, which required additional handling, as they did not have
                                  sufficient MTE. (May 1, 2006, 12:09 p.m.)




                                                      8
Efficiency Review of the Dallas                                                                 NO-AR-07-005
 Bulk Mail Center



                                       •   Mail was often unloaded from trucks at the wrong
                                           processing location. Mail should be sent to the
                                           correct dock to avoid multiple handling.




                                  Illustration 4. Mail delivered to wrong dock. Employee-made sign
                                  venting frustration with mail delivered to the wrong dock area. (April 25,
                                  2006, 11:30 a.m.)

 Equipment                        Through our observations, we learned that Dallas BMC
 Opportunities                    management could better utilize existing equipment.
                                  Specifically, we found that:

                                       •   Keyers processed mail on Parcel Sorting Machines
                                           rather than processing it through the more efficient
                                           SSIU. This practice resulted in lower productivity and
                                           additional workhours.




                                                       9
Efficiency Review of the Dallas                                                               NO-AR-07-005
 Bulk Mail Center




                                  Illustration 5. Mail directed to keyers rather than SSIUs. Small parcels
                                  with an SSIU readable barcode were processed by parcel sorter keyers
                                  rather than by the more efficient SSIU, resulting in the use of unnecessary
                                  workhours. (April 25, 2006.)

                                        •   The practice of keying mail was encouraged when
                                            the goal should be having fewer pieces keyed.




                                  Illustration 6. Emphasis placed on keying. Emphasis was placed on
                                  number of parcels keyed. Mail should be first fed to the SSIU, reducing
                                  the need for keying. (May 1, 2006.)

                                        •   The Universal Sorter was not used as designed. The
                                            barcode scanner was covered with cardboard to
                                            disable the scanner, requiring mail to be keyed. This
                                            allowed more employees to be involved in work
                                            activities.


                                                      10
Efficiency Review of the Dallas                                                              NO-AR-07-005
 Bulk Mail Center




                                  Illustration 7. Scanner disabled on Universal Sorter. The Universal
                                  Sorter barcode scanner was disabled, requiring the use of keyers. This
                                  resulted in lower productivity. (April 25, 2006.)

                                        •    The sack sorter was used instead of more efficient
                                             processing equipment. For example, as shown in
                                             Table 6, actual productivity for sack processing
                                             (202 pieces per workhour) was below that of
                                             machinable parcels (313 pieces per workhour) and
                                             small parcel and bundle sorter operations (316
                                             pieces per workhour). The small parcel bundle sorter
                                             and parcel sorting machines process over 54 percent
                                             more pieces per workhour than the sack sorter.

                                      Table 6. Productivity Comparison of Machinable Parcels,
                                               Small Parcel Bundle Sorter, and Sack Sorter

                                                      Operation                     FY 2006
                                                                                 (Pieces/hour)
                                            Machinable Parcels                        313
                                            Small Parcel and Bundle Sorter            316
                                            Sack Sorter                               202

                                       •     The Powered Industrial Vehicle Management System
                                             (PIVMS) was not being used to manage workhours.
                                             Managers did not properly review reports and monitor
                                             tow and forklift drivers. For example, tow drivers
                                             accounted for 12.6 percent of total function 1
                                             workhours, compared to the national average of




                                                      11
Efficiency Review of the Dallas                                                                  NO-AR-07-005
 Bulk Mail Center



                                            7.10 percent. If the Dallas BMC could achieve the
                                            national average through better use of the PIVMS, a
                                            potential 103,000 workhours could be saved.

    Causes and Impact on          Management at the Dallas BMC addressed operational
    Operations                    efficiency by reducing workhours to better align with budgeted
                                  workhours. As a result, they had reduced FY 2006 workhours
                                  by approximately 31,400 from FY 2005 levels. However,
                                  management had not evaluated operational efficiency by
                                  assessing its performance against productivity targets and
                                  other BMCs, and adjusting resources, both staff and
                                  equipment, in response to workload changes. Appendix E
                                  provides suggestions to improve Dallas BMC efficiency.

                                  We also found that improved and consistent supervision9 was
                                  needed. Specifically:

                                       •     During the audit, supervisors were difficult to locate
                                             based on our spot checks.

                                       •     The Dallas BMC had high management turnover. For
                                             example, during a 2-year period, out of 36 authorized
                                             supervisors of distribution operations, 18 positions
                                             had been vacated. Also, out of nine authorized
                                             managers of distribution operations, two positions had
                                             had been vacated. These positions have
                                             subsequently been filled; however, the vacancies
                                             resulted in inconsistent supervision.

                                       •     Employees were not properly scheduled. For
                                             example, there was an overlap of 1.5 hours between
                                             Tours 1 and 2. During this overlap, employees were
                                             found idle. (See Illustration 8.)

                                        •    Supervisors did not ensure that employees reported
                                             to workstations promptly. (See Illustrations 9 and
                                             10.)




9
 Supervisory control was also addressed in our September 28, 2006 Dallas BMC Mail Processing Internal Control
Report.



                                                       12
Efficiency Review of the Dallas                                                              NO-AR-07-005
 Bulk Mail Center




                                  Illustration 8. Mail backed up on Rapistan Tray Sorter. Mail was
                                  backed up on the Rapistan tray sorter while employees were idle. (April
                                  25, 2006.)




                                  Illustration 9. Nonmachinable outsides mechanized operation not
                                  staffed. The nonmachinable outsides mechanized operation was not
                                  staffed for over an hour. (April 25, 2006.)




                                                     13
Efficiency Review of the Dallas                                                               NO-AR-07-005
 Bulk Mail Center




                                  Illustration 10. Inadequate supervision resulted in delays in processing
                                  nonmachinable outsides, creating a bottleneck. (September 13, 2006,
                                  7:21 a.m.)

                                  Consequently, the Dallas BMC used more workhours than
                                  necessary based on its mail volume. If the Dallas BMC’s
                                  productivity were raised to the average of the top 10 BMCs,
                                  management could reduce workhours by 418,000 and
                                  produce a cost avoidance of $134,971,638 over the next
                                  10 years.

 Postal Service Actions           During the audit, the Postal Service agreed to reduce
                                  workhours by 418,000 and began taking corrective action on
                                  our recommendations.




                                                      14
Efficiency Review of the Dallas                                                     NO-AR-07-005
 Bulk Mail Center




 Recommendations             To improve efficiency, we recommend the Manager, Dallas Bulk
                             Mail Center:

                             1. Reduce workhours by 418,000 at the Dallas Bulk Mail
                                Center, with an associated economic impact of $134,971,638
                                over a 10-year period.

                             2. Periodically evaluate operating efficiency by assessing its
                                performance against productivity targets and other bulk mail
                                centers, and adjusting resources (both staff and equipment)
                                in response to workload changes.

                             3. Provide better supervisory oversight of employees.

                             4. Reduce sack sorter processing as much as possible.

 Management’s                Management agreed with our finding and recommendations.
 Comments                    Management agreed to reduce workhours at the Dallas BMC
                             and to periodically evaluate the facility’s operating efficiency
                             against established productivity targets. Management also
                             agreed to increase supervisory oversight of employees, and
                             validate mail volumes processed on sack sorters.

 Evaluation of               Management’s comments are responsive to the finding and
 Management’s                recommendations. Management’s actions taken or planned
 Comments                    should correct the issues identified in the report.




                                                 15
Efficiency Review of the Dallas                                                                                          NO-AR-07-005
 Bulk Mail Center


                                                 APPENDIX A

                       SOUTHWEST AREA CUSTOMER SERVICE
                            DISTRICTS BY THREE-DIGIT
                                 ZIP CODE AREA

        Southwest Area
        Customer Service Districts


                                                                              Oklahoma
                                                                          (Oklahoma City)
                                                                  730-731, 734-738, 740-741, 743-749
                                                                                                       Arkansas
                                                                                                       (Little Rock)
                                                                                                          716-729

                  Albuquerque
                 865, 870-875, 877-885
                                                    Fort Worth
                                             739, 760-764, 768-769, 790-796


                                                                                           Dallas
                                                                                                                Louisiana
                                                                                           750-759
                                                                                                              (New Orleans)
                                                                                                         700-701, 703-708, 710-714




                                                                                            Houston
                                                                                             770-778

                                                              Rio Grande
                       El Paso and                            (San Antonio)
                        AOs only                           733, 765-767, 779-789,
                                                                  797-799




                                                                                                         03/28/06


                                    Source: U.S. Postal Service Blue Pages




                                                                16
Efficiency Review of the Dallas                                                         NO-AR-07-005
 Bulk Mail Center


                                         APPENDIX B

                                  PRIOR AUDIT COVERAGE

                                                                           Workhour      Monetary
                  Audit                  Report Number      Issue Date     Savings        Impact
 Bridgeport, CT, P&DF                    NO-AR-07-004         4/25/07         53,000    $17,740,107
 Seattle, WA, District CSBCS             NO-AR-06-005        8/2/2006         10,521     $3,688,930
 Los Angeles, CA, Worldway AMC           NO-AR-06-006        6/1/2006        760,000    192,000,000
 Washington D.C., BMC                    NO-AR-06-003        2/22/2006       400,000    118,000,000
 Chicago, IL, AMRU                       NO-AR-06-002       12/22/2005         3,860       1,100,000
 Canton, OH, P&DC                        NO-AR-05-013        9/22/2005       202,000     63,000,000
 Los Angeles, CA, ISC                    NO-AR-05-011        6/17/2005        85,000     26,100,000
 Los Angeles, CA, ISC AMRU               NO-AR-05-010        4/28/2005         5,450       1,800,000
 San Francisco, CA, AMRU                 NO-AR-05-012        9/6/2005          7,757       2,600,000
 Akron, OH, P&DC                         NO-AR-05-009        3/30/2005       235,000     74,000,000
 Mansfield, OH, Main Post Office         NO-AR-05-004        12/8/2004        52,000     17,200,000
 New York, NY, ISC                       NO-AR-04-009        9/24/2004       320,000     98,000,000
 New York, NY, ISC AMRU                  NO-AR-04-011        9/24/2004        30,000       9,300,000
 San Francisco, CA, ISC and GSA          NO-AR-04-006        3/31/2004       120,000     44,200,000
 Facility
 Oakland, CA, ISC and Regatta Facility   NO-AR-04-007        3/31/2004        25,000     17,013,959
 Springfield, VA, BMEU                   NO-AR-04-004         2/9/2004         2,775        969,893
 Columbia, MD, BMEU                      NO-AR-04-002       12/26/2003         3,960      1,400,000
 Southern MD, BMEU                       NO-AR-04-001       12/24/2003        20,240      8,400,000
 San Francisco, CA, BMEU                 AO-AR-03-002        9/25/2003        18,000      6,900,000
 Los Angeles, CA, BMEU                   AO-AR-03-001        7/31/2003        28,000      9,300,000
 Seattle, WA; Minneapolis, MN; and       CQ-AR-03-001        3/28/2003        15,053        588,730
 Des Moines, IA, BMEUs
 Colorado/Wyoming Performance            CQ-AR-02-001       9/26/2002         15,947      1,000,000
 Cluster BMEUs
 Total Savings                                                             2,413,563   $714,301,619

                                             Acronyms
                        AMC         Airport Mail Center
                        AMRU        Air Mail Records Unit
                        BMC         Bulk Mail Center
                        GSA         General Services Administration
                        ISC         International Service Center
                        P&DC        Processing and Distribution Center
                        P&DF        Processing and Distribution Facility
                        BMEU        Business Mail Entry Unit
                        CSBCS       Carrier Sequence Barcode Sorter




                                                 17
Efficiency Review of the Dallas                                                      NO-AR-07-005
 Bulk Mail Center


                                              APPENDIX C

                       BULK MAIL CENTER PROCESSING COSTS

                                                         Average FY    2-Year        Percent of
Bulk Mail Center (BMC)            Average FY 2005 Cost
                                                         2006 Cost     Average       National Average

Greensboro BMC (363193)                  $576.62            $652.28       $614.45        46.80%
Washington BMC (237482)                  $713.56           $1,151.36      $932.46         71.03%
Seattle BMC (547617)                     $974.66            $989.06       $981.86         74.79%
Denver BMC (072357)                      $963.89           $1,075.17     $1,019.53       77.66%
Minneapolis BMC (266361)                $1,099.46          $1,073.75     $1,086.61        82.77%
San Francisco BMC (056785)              $1,009.22          $1,179.48     $1,094.35       83.36%
Los Angeles BMC (054529)                $1,197.91          $1,275.00     $1,236.45        94.18%
National BMC Average                    $1,260.06          $1,365.61     $1,312.83       100.00%
Pittsburgh BMC (416607)                 $1,310.88          $1,368.90     $1,339.89       102.06%
Jacksonville BMC (114381)               $1,303.97          $1,397.08     $1,350.52       102.87%
Atlanta BMC (120439)                    $1,301.18          $1,421.97     $1,361.58       103.71%
St Louis BMC (287141)                   $1,342.75          $1,401.20     $1,371.97       104.50%
Springfield BMC (247822)                $1,356.94          $1,471.14     $1,414.04       107.71%
Cincinnati BMC (381604)                 $1,402.43          $1,466.47     $1,434.45       109.26%
Philadelphia BMC (416545)               $1,519.39          $1,547.93     $1,533.66       116.82%
Dallas BMC (482269)                     $1,526.38          $1,649.04     $1,587.71       120.94%
Des Moines BMC (182413)                 $1,572.70          $1,628.48     $1,600.59       121.92%
Kansas City BMC (194654)                $1,655.24          $1,752.47     $1,703.85       129.78%
Chicago BMC (161541)                    $1,725.83          $1,718.88     $1,722.35       131.19%
Detroit BMC (252491)                    $1,672.58          $1,773.29     $1,722.94       131.24%
Memphis BMC (475665)                    $1,695.46          $1,828.01     $1,761.74       134.19%
New Jersey BMC (333869)                 $1,688.85          $1,872.77     $1,780.81       135.65%




                                                    18
 Efficiency Review of the Dallas                                                                     NO-AR-07-005
  Bulk Mail Center


                                                         APPENDIX D

                                  POTENTIAL WORKHOUR SAVINGS AT THE
                             DALLAS BULK MAIL CENTER (SELECTED OPERATIONS)

                                                                                                                 Potential
                                                                                                  FY 2006       Workhour
                                                            Productivity           Achieved    Workhours at     Savings at
                                TPH        FY 2006        Actual     Target      Percentage of 100 Percent of 100 Percent of
   Major Operations            Volume     Workhours      FY 2006    FY 2006         Target         Target         Target
Machinable Parcels           73,914,248       308,132        240           338              71       218,792          89,340
(Secondary)
Small Parcel Bundle          37,830,639       119,896        316           366              86       103,517          16,379
Sorter
Sack Processing              11,816,549         58,501       202           320              63        36,929          21,572
Nonmachinable                 2,528,190         60,417        42           116              36        21,875          38,542
Outsides Manual
Total                                                                                                                165,833

                                          Source: USPS Breakthrough Productivity Index




                                                               19
Efficiency Review of the Dallas                                                                      NO-AR-07-005
 Bulk Mail Center


                                                 APPENDIX E
                        DALLAS BULK MAIL CENTER
                  SUGGESTIONS FOR IMPROVING EFFICIENCY10
     9 Improve scheduling of employees. Consider eliminating 1.5 hour overlap between
       Tours 1 and 2.

     9 Reduce keying by sending mail first to the SSIU.

     9 Acquire a wider belt for the Universal Sorter to accommodate Non Machinable
       Outsides (NMO).

     9 Stage mail on a first-in first-out basis to reduce handling.

     9 Ensure that letter trays are not placed on sack sorter machines.

     9 Improve scheduling of preventive maintenance.11

     9 Review employee keying errors, take corrective actions, and reward good
       performance.

     9 Ensure that an adequate supply of MTE is available.

     9 Monitor forklift and tow drivers by using PIVMS reports.

     9 Process letter trays on the Rapistan Tray Sorter rather than the Universal Sorter to
       improve productivity.

     9 Inform employees of productivity goals and reward them accordingly.

     9 Closely monitor overtime usage.

     9 Eliminate use of the sack sorter to process NMOs.

     9 Monitor and reduce bundle breakage by training employees to restrap or place mail
       in another container.

     9 Institute better cross-docking procedures to minimize handling by providing
       adequate signage for drivers.

     9 Ensure that scanner on Universal Sorter is functioning and in use.


10
   These items are options for management to use as possible sources of workhour reductions. They are not
recommendations, and management may or may not implement them, at their discretion.
11
   This item was also identified in our September 28, 2006 Dallas BMC Mail Processing Internal Control Report.




                                                        20
Efficiency Review of the Dallas                                                NO-AR-07-005
 Bulk Mail Center


                                       APPENDIX F

                   DALLAS BULK MAIL CENTER COST AVOIDANCE
                        (FUNDS PUT TO BETTER USE)


                                                              Present Value of Cost
                                     Total Yearly                  Avoidance
                Years             Workhour Reduction        (10 Years with Escalation)

    FY 2007 through 2017                          418,000                $134,971,638


    NOTES

    •    The 418,000 workhour reduction was based on management’s plan to reduce
         workhours over a 10-year period, based on FY 2006 usage of approximately 2
         million workhours.

    •    The cost avoidance was calculated using the savings in hours multiplied by the
         escalated labor rate over a 10-year period.

    •    The net present value was calculated using the November 13, 2006, discount
         rate of 5.25 percent over a 10-year period.

    •    Labor rates were based on the Postal Service’s March 6, 2006, published rates
         for a level 05 (PS-05) mail processing clerk.

    •    The yearly escalation factor is 2 percent, based on the Postal Service’s Decision
         Analysis Factors effective November 13, 2006.

    FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by
    implementing recommended actions.




                                             21
Efficiency Review of the Dallas                        NO-AR-07-005
 Bulk Mail Center


                   APPENDIX G. MANAGEMENT’S COMMENTS




                                  22
